CERTIFICATE OF WORD COUNT
Case No. 20-1640
Case Name: Frederick M. Weber v. State of Ohio
Title: Brief for the Respondent in Opposition
Pursuant to Rule 33.1(h) of the Rules of this Court, I certify that the
accompanying Brief for the Respondent in Opposition, which was prepared using
Century 12-point typeface for the text and 10-point for the footnotes, contains 5886
words, excluding the parts that are exempted by Rule 33.1(d). This certificate was
prepared in reliance on the word count function of Microsoft Word, which was used
to prepare the document.
I declare under penalty of perjury that the foregoing is true and correct.
Dated this 21st day of July, 2021.
Respectfully submitted,
G. ERNIE RAMOS, JR.

Clermont County Prosecutor’s Office
(Of Counsel)
Counsel of Record
101 East Main Street,
Batavia, Ohio 45103
(513) 732-7993
eramos@clermontcountyohio.gov
eramos@gerlaw.net

